No. 19-978
IN THE SUPREME COURT OF THE UNITED STATES
_________________
TEAM RESOURCES INCORPORATED, ET AL., PETITIONERS
v.
SECURITIES AND EXCHANGE COMMISSION
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT, via e-mail and first-class mail, postage prepaid, this 5th
day of March 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 550 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
March 5, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 5, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0978
TEAM RESOURCES INCORPORATED, ET AL.
SEC

PHILLIP J. DEROSIER
DICKINSON WRIGHT PLLC
500 WOODWARD AVE.
SUITE 4000
DETROIT, MI 48226-3425
313-223-3500
PDEROSIER@DICKINSON-WRIGHT.COM
JACOB S. FRENKEL
DICKINSON WRIGHT PLLC
1825 I STREET NW
SUITE 900
WASHINGTON, DC 20006
202-466-5953
LAUREN A. KWAPIS
DICKINSON WRIGHT PLLC
2600 W. BIG BEAVER RD.
SUITE 300
TROY, MI 48084
248-433-7527

